              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services


              Infrastructure Series




Audit Report
Power Marketing Administration
Infrastructure Protection




OAS-B-03-01                                 April 2003
                                DEPARTMENT OF ENERGY
                                   Washington, DC 20585

                                           April 28, 2003

MEMORANDUM FOR THE ADMINISTRATORS, BONNEVILLE POWER
                   ADMINISTRATION, WESTERN AREA POWER
                   ADMINISTRATION AND SOUTHWESTERN POWER
                   ADMINISTRATION

FROM:                          Terry L. Brendlinger (Signed)
                               Director, Environmental Audits Division
                               Office of Audit Services
                               Office of Inspector General

SUBJECT:                       INFORMATION: Audit Report on "Power Marketing
                               Administration Infrastructure Protection"

BACKGROUND

The Department of Energy's Power Marketing Administrations (PMA) provide electric power
used in homes, hospitals, financial institutions, and military installations. Customers in 22
Western and Southwestern states depend on the reliable and cost-effective delivery of this
power. To provide this service, the PMAs maintain an infrastructure that includes electrical
substations, high-voltage transmission lines and towers, and power system control centers.
While protecting this critical infrastructure has always been important, it has received
heightened awareness in the post-September 11th environment.

In May 1998, Presidential Decision Directive-63, Critical Infrastructure Protection, required
all agencies to perform vulnerability and risk assessments for their critical assets and to focus
on preventive measures based on the results. While this directive is no longer binding, the
current administration has signaled its continuing support for critical infrastructure protection
efforts. The Department also requires vulnerability and risk assessments for each critical asset,
along with implementation of protective measures using a graded approach. A vulnerability
assessment examines the vulnerabilities of a system to attack or sabotage based on local
threats. Once vulnerabilities are identified, risk assessments analyze the probability of attack
and severity of resulting damage. Using a graded approach, the most critical assets with the
highest vulnerabilities and greatest risk should receive the highest priority for increased
protection.

Because of the importance of the PMAs' infrastructure to the electric power sector, we initiated
this audit at the Bonneville Power Administration (Bonneville), Western Area Power
Administration (Western), and Southwestern Power Administration (Southwestern). The
                                             -2-


objective of the audit was to determine whether the PMAs have performed adequate
vulnerability and risk assessments for their critical assets.

RESULTS OF AUDIT

While Bonneville had performed adequate vulnerability and risk assessments for its most
critical assets, Western's and Southwestern's assessments were either inadequate or did not
exist. This occurred at Western because it had emphasized emergency recovery rather than
assessing all of its assets' vulnerabilities and risks. At Southwestern, management stated that its
security team's workload and travel restrictions limited the priority placed on completing the
assessments. As a result, Western and Southwestern assets could be more vulnerable to attack.
Moreover, the consequences of an attack could be more severe than necessary, including: (1)
impacts on employees and assets; (2) a decrease in mission capabilities; and, (3) economic
impacts on the PMAs and their customers. However, by using a graded approach to implement
risk mitigation strategies, Western and Southwestern will receive the greatest risk reduction
benefit for the money spent.

We recommended that the Administrators of Western and Southwestern ensure that (1)
adequate vulnerability and risk assessments are performed for their critical assets; and (2)
appropriate risk mitigation strategies for asset protection are developed and implemented.

This report is one in a series that the Office of Inspector General has prepared regarding aspects
of the Department's efforts to address its infrastructure requirements. For the past several years,
our office and other reviewers have noted that mission-critical infrastructure has been
deteriorating at an alarming rate and that required maintenance was often not being performed.
Our other reports discuss infrastructure issues facing the Department's Environmental
Management, Science, and National Nuclear Security Administration program areas.

MANAGEMENT REACTION

Western and Southwestern concurred with our finding and recommendations and have initiated
corrective actions.


cc: Director, Office of Security
POWER MARKETING ADMINISTRATION INFRASTRUCTURE
PROTECTION

TABLE OF
CONTENTS



               Vulnerability and Risk Assessments


               Details of Finding ...................................................................... 1

               Recommendations and Comments ........................................... 4


               Appendices

               1. Prior Reports ......................................................................... 5

               2. Objective, Scope, and Methodology ..................................... 6

               3. Management Comments—Western Area
                  Power Administration ........................................................... 7

               4. Management Comments—Southwestern Power
                  Administration ..................................................................... 10
VULNERABILITY AND RISK ASSESSMENTS


Assessment Performance   Western Area Power Administration (Western) and Southwestern
                         Power Administration (Southwestern) had not adequately assessed the
                         vulnerabilities and risks for their critical assets. In contrast, the
                         Bonneville Power Administration (Bonneville) had performed adequate
                         vulnerability and risk assessments and had begun using a graded
                         approach to increase protection of its most critical assets.

                                           Western Area Power Administration

                         Since 1997, Western has been involved in efforts to identify its critical
                         assets and determine their physical vulnerabilities. Most recently,
                         Western performed an assessment in June 2002 of 31 assets it identified
                         as being critical. However, the assessment did not address all
                         vulnerabilities or evaluate the risks that the vulnerabilities would be
                         exploited. For example, the assessment did not consider the full range
                         of potential threats, give any indication of past intruders or damage to
                         the assets, or evaluate the likelihood that any attack would occur. The
                         assessment only considered theft and vandalism and cited minimum and
                         maximum security upgrades needed. Further, the assessment did not
                         use a graded approach in determining the appropriate level of protection
                         for each critical asset. For example, two substations showed the same
                         minimum or maximum upgrades although one had a low occurrence of
                         theft and vandalism and the other had a medium occurrence. In June
                         2002, Western estimated it would cost about $1.6 million to make the
                         maximum upgrades and to implement its mitigation strategies.

                         One of Western's four regions performed a separate and more detailed
                         risk assessment for one critical asset valued at $11 million—a Power
                         Marketing Operations Center. Although it addressed more types of
                         potential threats than did the June 2002 report, it was still incomplete.
                         For example, although the assessment addressed national threats, the
                         assessment did not address local threats such as gangs or local terrorist
                         organizations nor include all of the region's critical assets. Also, there
                         was no mention in the assessment of prior acts of vandalism or other
                         attacks on the assets of the facility to show the likelihood of future
                         attacks. In addition, the report's analysis did not cite support for its
                         rating of medium to low risk from sabotage or terrorism. Moreover, the
                         risk mitigation strategies developed were for maximum threat
                         protection only and, therefore, did not use the graded approach.


                                           Southwestern Power Administration



Page 1                                                                         Details of Finding
                      Southwestern did not perform any vulnerability and risk assessments for
                      its critical assets. Southwestern claimed that its security personnel had
                      conducted some informal security reviews. However, during the audit
                      Southwestern recognized that it needs to perform formal vulnerability
                      and risk assessments for its critical assets. Southwestern management
                      officials told us that it would now become a priority to complete the
                      assessments, which are also required by its 2002 Security Plan.

                                              Bonneville Power Administration

                      In contrast, Bonneville had performed adequate vulnerability and risk
                      assessments of 11 of its critical assets and had begun a graded approach
                      to implementing additional security upgrades for those assets.
                      Bonneville performed its vulnerability and risk assessments using the
                      Risk Assessment Methodology for Transmission (RAM-T), adapted
                      from a similar methodology used for Government-owned dams. RAM-T
                      takes into account the requirements of the Department of Energy's
                      (Department) Safeguards and Security Program as contained in its
                      Design Basis Threat and Order 470.1. For example, to address
                      vulnerabilities, the RAM-T methodology begins with a threat
                      identification worksheet listing nine major categories of threats and then
                      determines if they are present in the asset's local area. If a threat exists,
                      RAM-T assists in identifying the vulnerability of the asset by analyzing
                      the history of the threat in the local and surrounding area for each
                      adversary. Once the vulnerability is identified, RAM-T evaluates the
                      risk by assessing the probability that an attack will occur from each
                      adversary identified.

                      After completing its assessments of 11 critical assets, Bonneville
                      developed risk mitigation strategies using a graded approach that
                      matched the level of proposed upgrades with the likelihood and
                      projected impact of attacks. Bonneville has budgeted $5.3 million in
                      Fiscal Year 2003 to implement some of the proposed upgrades to the 11
                      assets. Bonneville plans to perform additional assessments and develop
                      risk mitigation strategies for its remaining 156 critical assets.

                      Vulnerability and risk assessments at Western were inadequate because
Management Concerns   management was primarily concerned about recovering from any
and Priorities        disruption in operations, regardless of its source. Western stated it had
                      little control over external threats, thus it had not identified the
                      vulnerabilities of its critical assets for all types of threats.




Page 2                                                                        Details of Finding
                Southwestern had not performed any vulnerability and risk assessments
                because doing so was not deemed a high priority. In questioning
                Southwestern security managers why the vulnerability and risk
                assessments were not done, they stated that the security team's
                workload and travel restrictions limited the priority it had placed on
                conducting the assessments.

                However, during the audit, Western and Southwestern personnel
                acknowledged the need to improve their infrastructure protection
                planning. Western provided an outline of actions planned to meet the
                intent of the Department's requirements. Likewise, both Western and
                Southwestern personnel told us that they intend to use the RAM-T
                methodology in completing the vulnerability and risk assessments for
                their critical assets.

Vulnerability   Without adequate vulnerability and risk assessments, Western and
                Southwestern could be more vulnerable to attack. In addition, the
                consequences of an attack could be more severe than necessary,
                including:

                   •   Increased risk of injury and death to Power Marketing
                       Administration (PMA) employees;

                   •   Destruction of hundreds of millions of dollars of critical assets
                       (e.g., just one Western substation would cost about $86 million
                       to replace);

                   •   A decrease in mission capabilities including prolonged
                       disruption of service to its customers, which include military
                       installations;

                   •   Lost revenues of up to $1 billion per year; and,

                   •   Economic impacts to its customers such as lost productivity and
                       employment reduction.

                However, by using a graded approach to implement risk mitigation
                strategies, Western and Southwestern will receive the greatest risk
                reduction benefit for the money spent. For example, in its June 2002
                report, Western identified approximately $1.6 million needed at its
                critical facilities for maximum threat protection from two identified
                threats (vandalism and theft). However, by assessing a broader range of



Page 3                                                               Details of Finding
                      potential threats at those facilities and selecting a risk mitigation
                      strategy that matches the level of protection needed—which may not
                      be the maximum level—Western can focus its scarce resources on
                      mitigating the highest identified risks first.

RECOMMENDATIONS       We recommend that the Administrators of the Western Area and
                      Southwestern Power Administrations ensure that:

                         1) Adequate vulnerability and risk assessments are performed
                            for their critical assets; and,

                         2) A graded approach is used to develop appropriate risk
                            mitigation strategies and begin security improvements at their
                            highest priority critical assets.

MANAGEMENT REACTION   Western and Southwestern management concurred with our
                      recommendations and have initiated corrective actions. Western has
                      initiated the application of the RAM-T methodology to the results of
                      its previous assessment. In addition, Western contacted the
                      Department's Office of Energy Infrastructure to obtain assistance to
                      conduct more in-depth assessments of its critical facilities. Western
                      stated that it would use the RAM-T and Office of Energy
                      Infrastructure initiatives to determine if a graded approach is prudent
                      and that its resources are used effectively. Any new actions
                      identified as a result of these initiatives would be programmed in
                      outlying years' budgets. Western's verbatim comments can be found
                      in Appendix 3.

                      Southwestern stated that they will give priority to performing
                      vulnerability and risk assessments and use a graded approach to
                      develop appropriate risk mitigation strategies. Southwestern's
                      verbatim comments can be found in Appendix 4.

AUDITOR COMMENTS      We believe that Western and Southwestern's proposed actions are
                      responsive to the audit recommendations.




Page 4                                               Recommendations and Comments
Appendix 1

                                            PRIOR REPORTS


  •   Cyber-Related Critical Infrastructure Identification and Protection Measures (DOE/IG-0545,
      March 2002). The audit found that, while the Department had initiated certain actions designed to
      enhance cyber security, it had not made sufficient progress in identifying and developing protective
      measures for critical infrastructures or assets. For example, the audit disclosed that the
      identification of national priority assets had not been finalized and the specific identification of
      critical cyber-related assets had not begun. The report stated that the Department had not devoted
      sufficient resources to identifying and developing protective measures for cyber-related assets.
      Lack of progress in this important area increased the risk of malicious damage to critical cyber
      assets with all of the associated potential impacts.

  •   Implementation of Presidential Decision Directive 63, Critical Infrastructure Protection (DOE/
      IG-0483, September 2000). The audit found that the Department had not implemented its critical
      infrastructure protection plan to mitigate significant vulnerabilities, or assure the continuity and
      viability of its critical infrastructures. For example, planning and assessment activities required by
      Presidential Decision Directive 63 (PDD 63), such as critical asset identification, vulnerability
      assessments, and corrective action plans remained incomplete. The report stated that the
      Department's lack of progress in fully implementing and executing PDD 63 increased the risk of
      malicious damage to its cyber-related critical infrastructure that could adversely impact the
      Department's ability to protect critical assets and deliver essential services. Further, the report stated
      that national goals for achieving an initial protection capability by the end of 2000 and a fully
      functional infrastructure protection program by 2003 might also be adversely impacted.




Page 5                                                                                          Prior Reports
Appendix 2

OBJECTIVE     The objective of the audit was to determine whether the Power
              Marketing Administrations (PMAs) have performed adequate
              vulnerability and risk assessments for their critical assets.

SCOPE         The audit was performed at Bonneville, Western, and Southwestern
              PMAs between October 2002 and January 2003. We did not include
              the Department's fourth PMA, the Southeastern Power Administration.
              Unlike the other PMAs, it does not own transmission facilities or other
              widespread physical assets. The audit identified a material internal
              control weakness that Western and Southwestern management should
              consider when preparing their yearend assurance memoranda on
              internal controls.

METHODOLOGY   To accomplish our objective, we:

                 • Reviewed Presidential Decision Directives, an Executive Order,
                     and Department, Bonneville, Western and Southwestern policies
                     and procedures applicable to vulnerability and risk assessments;

                 • Evaluated each PMA's critical asset identification documents;

                 • Interviewed Department Headquarters officials and security
                     personnel at Bonneville, Western and Southwestern; and,

                 • Reviewed and evaluated documents related to vulnerability and
                     risk assessments at Bonneville and Western.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. In addition, we
              reviewed the Department's performance measures related to
              vulnerability and risk assessments in accordance with the Government
              Performance and Results Act. Because our review was limited, it
              would not necessarily have disclosed all internal control deficiencies
              that may have existed at the time of our audit. We did not rely on
              computer-processed data to accomplish our audit objective.

              An exit conference was waived by management at both Western and
              Southwestern.




Page 6                                                     Scope and Methodology
Appendix 3




Page 7       Management Comments—Western Area Power Administration
Appendix 3 (continued)




Page 8                   Management Comments—Western Area Power Administration
Appendix 3 (continued)




Page 9                   Management Comments—Western Area Power Administration
Appendix 4




Page 10      Management Comments—Southwestern Power Administration
Appendix 4 (continued)




Page 11                  Management Comments—Southwestern Power Administration
                                                                              IG Report No.: OAS-B-03-01

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
